Martin

September 30, 2019

J. Bienenstock

Member of the Firm
d +1.212.969.4530
f 212.969.2900

B eFile and Federal Ex ress

mbienenstock@proskauer.

corn

www. proskauer. corn

Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Re: Ambac Assurance Cor oration v. Financial Oversi ht and Mana ement Board for
Puerto Rico et aL No. 19-387
Dear Mr. Harris:
On behalf of the Financial Oversight and Management Board for Puerto Rico (the
"Board"), I am writing pursuant to Supreme Court Rule 30.4 to request a 30-day extension of
time for respondents to file a response to the petition for a writ of certiorari (the "Petition" ) in the
above-captioned matter. The Petition was docketed on September 24, 2019. Accordingly, the
response is currently due on October 24, 2019. The requested 30-day extension would extend
the due date to November 25, 2019 (because November 23 is a Saturday). Counsel for petitioner
consents to the requested extension.

The Board was established by Congress to oversee the restructuring of Puerto Rico's
massive public debt the largest restructuring of public debt in American history. See 48 U. S.C.
$ 101(b). At present, the Board is litigating numerous adversary proceedings within the
bankruptcy-like cases it has filed on behalf of the Commonwealth and its municipal entities. The
Board also currently has eight appeals pending before the First Circuit and is litigating at this
Court the matter captioned Financial Oversight and Management Board for Puerto Rico v.
Aurelius Investment, LLC, Nos. 18-1334 et al. , which is scheduled for oral argument on October
15, 2019. Moreover, the Board will be engaged in extensive court-ordered mediation sessions in
October largely focusing on its newly filed proposed plan of adjustment covering 173 pages and
explained in a proposed disclosure statement spanning over 400 pages.

—

In light of the great number of matters the Board is handling, we respectfully submit that
the requested extension is necessary to allow us to respond properly to the Petition.

Sincerely,

btertrreltmrei
Martin

cc: Neal

Beiiina

I

Kumar Katyal, Counsel

Boca Raton

I

Boston

I

Chicaao

I

J. Bienenstock

of Record for Petitioner

Hona Kona

I

London

I

Los Anaeles

I

New Orleans

I

New York

I

Newark

I

Paris

I

sao Paulo washinaton.
I

DC

i

